MATT RODRIQUEZ
Acting Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET
SACRAMENTO, CA 95814

Telephone: (916) 210-6269
E-Mail: Sam.Siegel@doj.ca.gov

March 22, 2021
Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
RE:

Rodriguez, et al. v. Newsom, et al., No. 20-1100
Request for Extension of Time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on February 5, 2021.
Respondents filed a waiver of their right to file a response to the petition on February 25, 2021.
By letter dated March 8, 2021, the Court requested that respondents file a response on or before
April 7, 2021.
Pursuant to Rule 30.4, respondents respectfully request that the time for filing a response
be extended by 30 days, up to and including May 7, 2021. An extension of time would allow for
adequate time for internal review and would better enable the preparation of a response that
respondents believe would be most helpful to the Court. Counsel for the petitioners has
indicated that they do not oppose this request.
Sincerely,
/s Samuel P. Siegel
SAMUEL P. SIEGEL
Deputy Solicitor General
For
cc:

MATTHEW RODRIQUEZ
Acting Attorney General

David Boies
Boies Schiller Flexner LLP
Counsel of Record for Petitioners Paul Rodriguez, et al.

